z?

No.
IN THE

Supreme Court of the United States
Christopher Gary Baylor,
Petitioner,
v.
AYANO ETO,
Respondent.

On Petition For Writ Of Certiorari
To The Minnesota Supreme Court for the Third District
EXPEDITED PETITION FOR WRIT OF
CERTIORARI

Christopher Gary Baylor
Against A Fatherless America
Advocate for the Prevention of
Child Abduction, Abuse & Alienation
491 Baltimore Pike, 105
Springfield, PA 19064
(484) 682-2605
edo_delight@comcast. net

RECEIVED
MOV 2 7 2020

EXPEDITED

QUESTIONS PRESENTED
The Fourteenth Amendment of the United States
Constitution protects against the deprivation by state
action, of a constitutionally protected interest in “life,
liberty, or property” without the due process of law.
The Fourteenth Amendment's Due Process Clause
requires the United States government to practice
equal protection, crucial to the protection of civil
rights. A violation of either these protections includes
that a state may not interfere with a parent’s marital
or custodial status absent due process protections.
The marital and parent-child relationship is a liberty
interest that is said must be protected by the Due
Process Clause of the 14th Amendment.
In Simon v. Southern Railway Company, 236
U.S. 115, 35 S. Ct. 255, 59 L. Ed. 492, this Court held
that “a judgment against a person on whom no
process has been served is not erroneous and
voidable, but, upon principles of natural justice, and
also under the due process clause of the Fourteenth
Amendment, is absolutely void.” The question that
follows is: May a state court terminate the rights of a
parent without notice or due process of service?
This Court answered the next question in M.L.B.
v. S.L.J., 519 U.S. 102 (1996). May a state court deny
an indigent person relief based on inability to pay?
The federal questions presented here conflict
with decisions made by the state court of last resort,
and are based on important issues of federal law.

11

TABLE OF CONTENTS
Question Presented..................................................
Table of Contents......................................................
Table of Authorities..................................................
Opinions Below..........................................................
Jurisdiction.................................................................

1

n
in

Statutory Provision Involved..................................
Statement...................................................................
A. Statutory background...................................
B. Factual b ackground......................................
C. Procedural background................................
Reasons for Granting the Petition.........................

1
1
1
2
5
7
9
11

A. The state court’s decisions conflict with this
Court’s precedence...................................................

13

B. The lower court sanctioned a departure from the
usual requirement of Due Process over a non­
resident ......................................................................
19
C. The decision below conflicts with governing
Supreme Court precedent, and has significant
consequences based on an important issue of federal
law...........................................................................
22
D. The other questions presented below are
important..............................................................
Conclusion............................................................

26
30

Appendix A — state supreme court first denial of
review.............................................................................. la
Appendix B — state court of appeals denying review
due to inability to pay
2b
Appendix C — state supreme court second denial of
review............................................................................... lc
Appendix D — state supreme court third denial of
review............................................................................... Id
Appendix E — state court of appeals denying claims
of fraud and void judgments
3e
Appendix F — state supreme court fourth denial of
review................................................................................ If
Appendix G — state fam. district court denying IFP
relief on substantial claims...................................
3g
Appendix H — state civ. district court denying
review of merits and evidence..............................
12h
Appendix I — state fam. district court ex-parte order
void of findings................................................................ 5i
Appendix J — state fam. district court continuance
order void of findings...................................................... 4j

Ill

TABLE OF AUTHORITIES
Cases
Abbott v. Abbott, 282 N.W.2d 561, 566 (Minn. 1979)
22
Baker v. Baker, 222 Minn. 169, 171, 23 N.W.2d 582,
583 (1946)
22
Boddie u. Connecticut, 401 U.S. 371 (1971)
25
Bode v. Minn. Dep't of Natural Res., 594 N.W.2d
257, 261 (Minn. App. 1999), affd, 612 N.W.2d 862
(Minn. 2000)
28
Charson v. Temple Israel, 419 N.W.2d 488, 491
(Minn. 1988)
21
Cook v. Arimitsu (In re Marriage of Cook),
A19-1235
7
Cook v. Arimitsu, 907 N.W.2d 233, Ct. App. Minn.
(2018)
7
DeCook v. Olmsted Med. Ctr., Inc., 875 N.W.2d 263,
270-71 (Minn.2016)
15

Dental Fund, 867 F. Supp. 2d 1023, 1032 (D. Minn.
2012)
23
Duenow u. Lindeman, 223 Minn. 505, 518, 27 N.W.
2d 421, 429 (1947)
21
Freeman v. Abdullah, 925 F.2d 266, 267 (8th Cir.
1991)
24

IV

Cases—continued
Goldberg v. Kelly, 397 U.S. 254 (1970)
27

Gunter v. Morrison, 497 F.3d 868, 873
(8th Cir. 2007)
10
Halloran v. Blue White Liberty Cab Co., Minn. 436,
442, 92 N.W.2d 794, 798 (1958)
passim
Hengel v. Hyatt, 312 Minn. 317, 318, 252
N.W.2d 105, 106 (1977)
14
In re Marriage of Schmidt, 436 N.W.2d 99, 106-07
(Minn. 1989)
28

In Simon v. Southern Railway Company, 236 U.S.
115, 35 S. Ct. 255, 59 L. Ed. 492
.............................................................................passim
Johnson v. Johnson, 243 Minn. 403, 68 N.W.2d 398
(1955)
15
Lee v. Lee, 775 N.W.2d 631, 637 (Minn. 2009)
27

Loughran v. Loughran, 292 U.S. 216, 223, 54 S. Ct.
684, 78 L. Ed. 1219 (1934)
22

M.L.B. v. S.L.J., 519 U.S. 102 (1996)
passim
Melillo v. Heitland, 880 N.W.2d 862, 864
(Minn. 2016)
13
Neitzke v. Williams, 490 U.S. 319, 325 (1989)
24
Peterson v. Eishen, 495 N.W.2d 223, 225 (Minn.
App. 1993), affd, 512 N.W.2d 338 (Minn. 1994)
14

V

Cases—continued
Poulos v. New Hampshire, 345 U.S. 395 (1953)
8

Practice Management Support Services, Inc. v.
Cirque du Soleil, Inc.
F. Supp.3d___, 2018 WL
1255021 (N.D. Ill. March 12, 2018)
17
Radtke v. Miscellaneous Drivers & Helpers Union
Local No. 638 Health, Welfare, Eye & Dental Fund,
867 F. Supp. 2d 1023, 1032 (D. Minn. 2012)
23

Robertson v. Roth, 163 Minn. 501, 204 N.W. 329, 39
A.L.R. 1342
23

Schmidt ex rel. P.M.S. v. Coons, 818 N.W.2d 523,
526 (Minn. 2012)
28
Shamrock Dev., Inc. v. Smith, 754 N.W.2d 377, 382
(Minn.2008)
17
SooHoo v. Johnson, 731 N.W.2d 815, 825

(Minn. 2007)
28
Tankar Gas v. Lumbermen's Mutual Casualty Co.,
215 Minn. 265, 272, 9 N.W.2d 754, 759 (1943)
13
Troxel v. Granville, 530 U.S. 57, 65, 120 S. Ct. 2054,
147 L.Ed.2d 49 (2000)
28
Wallace v. State, 820 N.W.2d 843, 850 n.3
(Minn. 2012)
24

VI

Statutes
20 CFR 404.725(a)..........................

22

28 U.S.C. § 1257(a) .......................

1,6

Minn.R.Civ.P. 3.01........................

14

Minn.R.Civ.P. 4.03/05 ..................

14

Minn.R.Civ.P. 5.01........................

14

Minn. Stat. § 518.131, Subd.2(a).

28

Minn. Stat. § 518B.01, Subd.7 ....

28

Minn. Stat. § 563.01......................

24

Minn.R.Gen.Prac. 355.02, Subd.2

.......14,20

Minn.R.Civ.App.Proc. 109.............

24, 25, 26

Other authorities
Anna Fifield, Japan signed abduction treaty but for
‘left-behind’parents that doesn’t mean much
(Jul. 16, 2017)......................................................

7

Lost in Japan - Taking Our Kids ISBN
9780998774336 (2018)........................................

7

Marriage Fraud and Awkward Public Policy
Question

12

Two Small Bits Good News Marriage Fraud Front
12

PETITION FOR A WRIT OF CERTIORARI
Christopher Gary Baylor respectfully petitions
for a writ of certiorari to review the decisions of the
state supreme court for the third district of
Minnesota in this case.
OPINIONS BELOW
The decisions of the Minnesota supreme court
(App., infra, la; lc; Id & If). The decisions of the
Minnesota court of appeals denying petitioner’s writ
of review (App., infra, lb-3b), and leave for review
(App., infra, le-3e). The opinions of district court
fam. (App., infra, lg-3g, li-5i, lj-4j). The opinion of
district court civil (App., infra, lh-12h).
JURISDICTION
The decisions of the Minnesota supreme court
were entered on August 11, 2020 and October 20,
2020. This Court’s jurisdiction rests on 28 U.S.C. §
1257(a).
STATUTORY PROVISION INVOLVED
Section 1657, Title 28, of the U.S. Code provides:
(a) Notwithstanding any other provision of law, each
court of the United States shall determine the
order in which civil actions are heard and
determined, except that the court shall expedite
the consideration of any. . . action if good cause
therefor is shown. For purposes of this
subsection, “good cause” is shown if a right under
the Constitution of the United States or a
Federal Statute (including rights under section
552 of title 5) would be maintained in a factual
context that indicates that a request for
expedited consideration has merit.

2

STATEMENT
The Federal Constitution provides Due Process,
Equal Protection by law and outlaws discrimination
based on race, color and sex. This Court’s decisions
provide that a court shall hear any case challenging
certain decisions in derogation of these laws, upon a
duty conferred by Congress and the Constitution,
guaranteeing all citizens protection under that which
is rooted in Fourteenth Amendment principles. In the
case at bar, discrimination against non-resident
Baylor, a protected class indigent male self litigant,
plays a major role in the arbitrary use of the state
court’s legal impairments designed to block his right
to obtain lawful relief, remedy or redress against void
decisions made without notice or service of process
obtained through fraud. This in turn has colorfully
terminated his parental rights for more than 3 years
in dozens of actions without Due Process of law.
This petition — involves a First and Fourteenth
Amendment challenge to the final 2020 state court
decisions,
recognizing the Minnesota court’s
convoluted redistribution of protected rights to its
own state members, rather than affording the same
equal protection to out-of-state residents such as
Baylor, which includes the rights of a large swath of
non-residents, indigents, males, fathers and self
litigants when a court of last resort declines to
consider Due Process infringements obtained through
an obvious use of fraud evinced on the face of the
record. For even where there has been process and
service, if the court "finds that the parties have been
guilty of fraud in obtaining a judgment ... it will
deprive them of the benefit of it." Simon, 236 U.S. 115
at 122.

3
The Fourteenth Amendment claim in this case is
— not because one district court judge determined
that a claim is wholly frivolous (it is not), but because,
in its singular view, Baylor’s pleadings vitiate the
district court’s jurisdiction under state, this Court’s
precedence and Federal Law.
In taking that approach, fourth district court was
following the third district appellate court’s decision,
without making an independent review of prima facie
evidence not once considered by any court in the state
of Minnesota. There, the third district court held that
respondent’s ineffective service procured by fraud was
proper; district court’s denial of Baylor’s telephonic
civil trial appearance while residing more than 1600
miles outside the territory of Minnesota — resulting
in a default judgment against a non-resident indigent
— did not violate Due Process; And that issuance of a
decree dissolving a common-law marriage was a
lawful exercise of the court’s statutory authority; and
that destruction of Baylor’s evidence and pleadings
was somehow remedied by a subsequent decision.
On the other hand, another fourth district court
judge in a satellite case declined to review the merits
of Baylor’s case brought in an independent action,
solely based on prior reasoning. Nevertheless, when a
court of last resort sanctions such a departure by a
lower court, certiorari calls for an exercise of this
Court's supervisory power when state court departs
so far from the accepted and usual course of
proceedings, intervention is a must. Baylor’s claims
under the Fourteenth Amendment inextricably
intertwine with First Amendment protections which
implicate a deprivation of free speech when access to

4
the same court procedures as the respondent, state
residents and other persons similarly situated, is
denied to a non-resident.
The third district summarily affirmed both
district court dismissals of Baylors’ claims on that
basis, disregarding improper service, absent notice,
and the inability of an indigent to pay court cost,
which involves a direct infringement and deprivation
of Fourteenth Amendment protections when this
Court has already said, “[d]ue process and equal
protection principles converge." The equal protection
concern relates to the legitimacy of fencing out would
be [Baylor] based solely on [his] inability to pay core
costs” M.L.B., 519 U.S. 102 at 120.
Both decisions, refusing to consider failure of
notice and service, combined with denial of the right
of access to court based on the inability to pay costs
are claims by definition that are not “insubstantial”,
properly subject to review.
The third district’s interpretation of Due Process
conflicts with its own holdings, this Court’s
precedents, and Eighth Circuit. Because the claims at
issue are non-frivolous (indeed, should not have been
dismissed or denied at all), it should have been heard
by a three-judge panel under the state court
teachings, and it would have been heard by a court if
it had been brought in any other jurisdiction, or by an
attorney, or state resident, or non-minority.
Proper resolution of the questions presented is a
matter of great practical importance. The current
issues are frequently recurring for more than 3 years,
imposing an undue burden on the State, government
and the American taxpayer, capable of repeating and

5
evading review for the next 13 years, as in challenges
like this one, and in other cases brought under the
Civil Rights Act e.g. 20-CV-1811-ECT/ECW, and
other statutes e.g. 27-CV-20-4935. The constitution
confers a duty upon this Court precisely because a
state will implicate important and sensitive matters:
The rather colorful termination of Baylor’s parental
rights is opposite M.L.B and lack of service thus
procured by fraud, rejected in Simon. These
authorities should guarantee the irrevocable loss of
child custody which has severed Baylor’s parent-child
bond, "irretrievabl[y] destructive]" of the most
fundamentally important rights. Timely resolution
not only promotes national public policy but guards
against the influence of any one court’s predilections,
ensuring greater public confidence and more accurate
judicial decision-making involving African-Native
Americans, non-residents, indigents, males, fathers
and self litigants. Further review is warranted.
A. Statutory background
This case concerns generally, the permanent and
irrevocable loss of Baylor’s familial rights through the
existential and imminent removal of his only
daughter from the United States of America — to a
foreign country that is generally known not to honor
the provisions of the Hague Convention, and without
given Due Process of law — thus promoting the
priority of this civil action. As since amended, Section
1657 provides that “for “good cause” shown, if a right
under the Constitution of the United States exists,
this factual context indicates that a request for
expedited consideration has merit.” Section 1657 of
Code 28 (Pub. L. 98-620, title IV, §401(a), Nov. 8,
1984, 98 Stat. 3356).

6
At issue here is the “forced dissolution of
[Baylor's] parental rights — that are large and more
substantial than mere loss of money” Id. at 519 U.S.
102. Additionally, the long-settled rule “recognizing]
a narrow category of civil cases in which the State
must provide access to its judicial processes without
regard to a party's ability to pay court fees.” Id at 113,
instead lies solely with lower court’s unilateral
discretion and loyalty to its own state residents, not
the fair and equal protection for minorities, non­
residents, males, father’s, indigents or self litigants
found in the United States constitution. The district
court itself lacks personal jurisdiction over Baylor and
of the respondent’s complaints, as to the subjectmatter. Furthermore, lower courts have repeatedly
exercised racial discrimination against Baylor.
In this context, expedited intervention by this
Court is necessary, since the lower courts have not
provided a fair means for Baylor to have his day in
court, and his “choices about marriage, family life,
and the upbringing of [his] child are among
associational rights this Court has ranked as of basic
importance in our society, rights sheltered by the
Fourteenth Amendment
against
the
State's
unwarranted usurpation, disregard, or disrespect.” Id
at 116 (quotations and citations omitted).
Baylor’s claims ‘wholly’ and ‘obviously’ have
cogent legal significance, indicating that said issues
are constitutionally insubstantial only if the prior
decisions inescapably rendered with bias, unfairness
and absent relevant law, have merit. In contrast, pre­
vious opinions that merely render Baylor’s claims
doubtful or questionable, do not render them
insubstantial for the purposes of 28 U.S. Code §1257.

7
B. Factual background
Preceding the deprivation of Baylor’s protected
rights, the Minnesota court recently decided on a
similar case in Cook v. Arimitsu, 907 N.W.2d 233, Ct.
App. Minn.(2018), rev. denied (Minn. Apr. 17, 2018);
See also Cook v. Arimitsu (In re Marriage of Cook),
A19-1235 (27 Apr, 2020). The news media has
described James E. Cook’s non-existent familial
rights as “the most problematic thing with Japan.”
Additionally it said “a lot of cases about return orders
are actually about access, about the noncustodial
parent being able to maintain a relationship with
their child”. Anna Fifield, Japan signed abduction
treaty but for ‘left-behind’ parents that doesn’t mean
much (Jul. 16, 2017), https://www.washingtonpost
.com/world/asia pacific/iapan-signed-abductiontreatv-but-forleft-behind-parents-that-doesnt-meanmuch/2017/07/14/ffb0209-677a-lle7-83d7-7a628c56
bde7storv.html “For three years of their lives, these
kids have not had their dad. Kids need their dad” Id.
James Cook, at the forefront of some major media
outlets, is a White male resident of Hennepin county
4th district Minnesota in a custody battle with the
Japanese mother of his 4 children. To date, Mr. Cook
has not once in 5 years seen, heard or spoken to his
children since taken from the United States of
America.
In an alike case, Daniel Richard Larson, a White
male resident of Hennepin county 4th district
Minnesota, similarly situated as Mr. Cook, is the
author of Lost in Japan - Taking Our Kids ISBN
9780998774336 (2018), nevertheless with much less
media attention, in civil case 27-FA-12-5260, lost the
familial rights to his 2 children — through no fault of
his own. Due to the countervailing intervention of 4th
district court, while Mr. Larson retained physical and

8
legal custody, enforced the removal of his 2 children
from the United States. At the looming deprivation of
his familial rights — was the exercise of law by his
own hands, resulting in the brief return of his
children, inevitably sent to a foreign country despite
his objections to the intrusion of rights. When a court
undertakes to proscribe the exercise of a citizen's
constitutional rights, it acts lawlessly; and the citizen
can take matters in his own hands and proceed on the
basis that such a law is no law at all. Dissenting,
Poulos u. New Hampshire, 345 U.S. 395 (1953).
In the case at bar which raises separate but
similar issues, Baylor, a Black male non-resident, for
more than 3 years, has been denied in more than
several dozen actions, suits and proceedings across
venues separated by more than 1000 miles, in both
state and Federal jurisdictions from the lowest to
highest court, from commencement to exhaustion as a
matter of course, never deemed a frivolous litigant —
at every step — has been deprived of all statutory and
lawful rights. Not once has any Minnesota court
granted a single iota of lawful relief, remedy or
redress despite showing judgments void on the face of
the record. Similarly situated as Cook and Larson,
Black Baylor remains adversely treated as a non­
resident minority male indigent self litigant, seeking
to enforce the retention and restoration of his familial
rights for the sole purpose of remaining a parent, and
keeping his only daughter in the United States of
apart from the latter.
America
https://www.blacknews.com/news/christopher-bavlorblack-father-fights-paternal-rights-preventinternational-abductiondaughter/?fbclid=IwARlOh8XblCOegqR9gONtGz7UNCbQH4KMIslxaxpcn0A0B4XNIEgJoxxTFw
Further review is warranted.

9
C. Procedural background
Due to the reason this case spans over 3-years
because of the exhaustive measures taken as a literal
matter of course — listing every decision or step taken
in every action, suit or proceeding would be
impractical, undoubtedly exceeding 20 pages. The
more imperative unanswered question here is —Why?
1. Four petitions were filed in the Minnesota
supreme court (App., infra, la; lc; Id & If) seeking
review of two decisions made by the Minnesota court
of appeals (App., infra, 2b & 3e) affirming district
courts.
2. On one hand, the state’s supreme court denied
review of Baylor’s petitions (App., infra, la; lc) which
raised federal questions, this Court’s precedent and
its own, regarding the denial of the right to appeal
based on the inability to pay, by which Baylor has
shown his indigency for the past 2 years by means of
public and housing assistance.
3. On the other hand, that same court denied
review of petitions (App., infra,Id & If) which raised
the federal question of Due Process based on mail and
other fraud both extrinsic and upon the court,
depriving notice and personal service causing the
colorful termination of familial rights. Even so, proof
lies on the face of the record that shows beyond a
reasonable doubt, prima facie evidence of ineffective
personal service and lack of notice. Nevertheless, the
state supreme court contemporaneously denied
review of petition’s raising constitutional claims on
October 20, 2020 (App., infra, lc; If).
4. In total, six petitions raising federal questions
and this court’s decisions on constitutional issues,
were denied in state courts, concluding on a decision

10
in conflict with governing state and Federal Supreme
Court precedent in cases squarely presenting
important issues of federal law such as parental and
marital rights thus denied. These petitions have
significant practical consequences upon public policy,
the life of the father, and the rights of the child who
remains at risk for imminent removal from the
United States of America absent intervention by this
Court — or by extra-judicial self help.
Applying the Due Process standard, the state
courts dismissed Baylors’ First and Fourteenth
Amendment claims wholly based on recent opinions
drawn from works of unfairness, absence relevant
law, review of the merits or evidence raised in his
pleadings. The court was not mindful of Baylors’
contentions raised for independent review of fraud or
void judgments, impeding acts currently recognized
as unconstitutional under 3rd, 5th, 7th, 8th, 10th and
11th district, at issue in this case since “state officials
may not directly or indirectly take retaliatory action
against an individual designed either to punish him
for having exercised his constitutional right to seek
judicial relief, or to intimidate or chill his exercise of
that right in the future.” see Gunter v. Morrison, A§1
F.3d 868, 873 (8th Cir. 2007). The court nevertheless
rejects Baylors’ First and Fourteenth Amendment
claims because, in its unilateral view, concluded that
due to the reason the merits where unworthy of
review, on that basis, no independent review or
consideration was made of Baylors’ evidence, or of the
pleadings — and therefore these claims were settled
and dismissed as non-justiciable or because of his
inability to pay.
Ever so, fraud in the procurement of jurisdiction
and lack of the subject-matter — cannot be waived.
Further review is warranted.

11
REASONS FOR GRANTING THE PETITION
This case presents questions of whether a state
court may refuse to hear substantial claims governed
by First and Fourteenth Amendment principles,
where claims based on no findings made on the merits
or evidence introduced, warrants dismissal and the
colorful termination of parental rights because of the
inability to pay court costs.
These singular views deferred to without
independent review percolates throughout the state
courts as a boilerpoint statement to the denial of
constitutional relief in excess of 3 years, in over
several dozen proceedings, on more than 100
occasions, colorfully terminating familial rights and
threatening the imminent removal of an American
born child from her American born father. The state
court’s decision to deprive right of access, free speech,
equal protection, notice and service conflict with the
United States constitution and Civil Rights Act, also
with the state’s own teachings, and are contrary to
Eighth Circuit and this Court’s holdings.
The state court’s decisions obviously void, should
not stand. Aside from ignoring this Court’s
precedents, it creates a conflict of public trust
because, the cities of Minneapolis and Saint Paul
Minnesota were most recently at the epicenter of the
murder of George Floyd, creating a global incident
resulting in triple digit revenue lose to governments
and American taxpayers. That state is now at the
hypocenter of a disposition that will not only affect
the national, but international public.
As it currently stands, no where in American
legislative history can it be found other than during
the abolishment of American slavery or its civil rights
era, this degree or extended denial and deprivation of

12
constitutional and inalienable rights. In the previous
child custody cases where there were 4, then 2
children — now remains one child ensnared by the
same court, county, city and state, who remains at
imminent risk of removal from the United States of
America based on fraud and a scheme. It is Baylor, an
“individual, vulnerable to intense personal pain,
substantial financial losses, and a loss of reputation
(falsely charged with abusing an alien spouse).”
https://cis.org/North/Marriage-Fraud-and-AwkwardPublic-Policv-Question ; https://cis.org/North/TwoSmall-Bits-Good-News-Marriage-Fraud-Front
This Court should reject the known practices of a
court and county known to non-citizens as a safe
haven in which the taking of American father’s
familial rights, are prone to lose by aid of 3rd and 4th
district courts run afoul, misconstruing the letter and
spirit of law.
The lower court’s denial to the quintessential
meaning of liberty, happiness and freedom results in
no meaning to life — at all. Denial in this very last
Court of last resort when there is no other, would
implicate hopelessness to the very citizen who
entrusts in “essential privileges” and a system which
has said, to uphold the law, however in absence would
merely stand as a last will and testament to a child
left behind.
What is more, is a proper resolution of the
questions presented is this matter of substantial
importance. It is the taking of this case which
presents a suitable vehicle to resolve the greater
conflict of loss that is the very essence of life itself,
the colorful termination of parental rights. Baylors’
claims are not obviously frivolous and would be
proven very real absent a morally justifiable decision
by a four-judge panel. Further review is warranted.

13
A. The state court’s decisions conflict with this
Court’s precedence
According to the U.S. Supreme Court’s decision in
Simon, “for in such a case where the person named as
defendant is obtained without service can no more be
regarded as a party than any other member of the
community. Such judgments are not erroneous and
not voidable but upon principles of natural justice,
and under the due process clause of the Fourteenth
Amendment, are absolutely void.” 236 U.S. 115, 35 S.
Ct. 255, 59 L. Ed. 492.
The state court’s decision is flatly inconsistent
with this Court’s precedent in three separate
respects.
First, Melillo v. Heitland, 880 N.W.2d 862, 864
(Minn. 2016) forbids personal service by mail, and
warrants reversal of a case by a single-judge even in a
lower court in a case which involves no arguable legal
theory. A meritorious defense is not required and the
state supreme court permits reversal. Accordingly,
“under Section 548.14, lower court has power set
aside a supreme court judgment when there has been
extrinsic fraud in its procurement.” see Tankar Gas v.
Lumbermen's Mutual Casualty Co., 215 Minn. 265,
272, 9 N.W.2d 754, 759 (1943).
Section 548.14, based on fraud, does not require
the fraud to be intrinsic, rather any fraud.1
1 Section 548.14 of the Minnesota statute states that
“any judgment obtained in a court of record by means of
perjury, subornation of perjury, or any fraudulent act,
practice, or representation of the prevailing party, may be
set aside in an action brought for that purpose by the
aggrieved party in the same judicial district within three
years after the discovery by the aggrieved party of such
perjury or fraud.” (2019).

14
But it hardly requires stating an arguable legal
theory under the 548.14 framework when a district
court must vacate a void judgment “without regard to
such factors as the existence of a meritorious
defense.”2 Thus, the sufficiency of a constitutional
Due Process claim of defective service which fails to
meet any statutory or Due Process requirement for
service3, is a question of law that “involves no
discretion on part of the district court; and judgment
must be set aside.”4
The basis for that conclusion is evident in
Halloran v. Blue White Liberty Cab Co., where that
court said “a judgment may be set aside at any time
if it is later discovered that there was fraud.” 253
Minn. 436, 442, 92 N.W.2d 794, 798 (1958). On the
contrary, Section 548.14 and Halloran merely
authorizes lower court to set aside judgment obtained
without Due Process of service or notice on the basis
of discretion — without regard to whether the claim is
based on federal question, governing case precedence
or constitutional principles — but on an outlandish
legal theory and recantation of previous decisions
foreclosed upon ultimately by an unavailing lower
court decision which decided that, service only of
summons upon Baylor by U.S. mail 2 days prior to
time to answer expires, satisfied this personal service
requirement to initiate a cause of action. Served
separately from complaint in this manner is fraud.
2 Peterson v. Eishen, 495 N.W.2d 223, 225 (Minn. App.
1993), aff d, 512 N.W.2d 338 (Minn. 1994)).
3 Minn.R.Gen.Prac. 355.02, Subd.2; Minn. Stat. § 518.09,
Minn.R.Civ.P.
3.01;
Minn.R.Civ.P.
4.03/05
or
Minn.R.Civ.P. 5.01.
4 Hengel v. Hyatt, 312 Minn. 317, 318, 252 N.W.2d 105,
106 (1977).

15
There is no way to reconcile this Court’s holding
in Simon with the state supreme court decision in
Halloran. Simon, indeed equates to the same concept
as Halloran, which forbids the use of fraud to forego
Due Process in order to obtain jurisdiction.
Likewise, “requires the initiation of an
independent equitable action.” Johnson v. Johnson,
243 Minn. 403, 68 N.W.2d 398 (1955). “But,
manifestly, if a new and independent suit could have
been brought in a state court. . . a like new and
independent suit could have been brought for a like
purpose in a Federal court”, Simon, 236 U.S. 115 at
123. Which has then bound this Court to act within
its jurisdiction to afford redress concepts that this
Court repeatedly has said are distinct. By doing so, it
permits precisely what Simon forbids: It allows
redress from a court which refuses to defer to its own
case precedence when jurisdiction over the person, is
obtained by the obvious use of fraud.
Naturally, “service on [Baylor], even if in
compliance with the requirements of [355.02s], was
not that kind of process which could give the court
jurisdiction over the person of the defendant for a
cause of action” Simon, 236 U.S. at 132. When a
[summons] cannot legally be served on a defendant,
the court can exercise no jurisdiction over him. The
service defines the court's jurisdiction. Id at 129. The
lower court’s holding in DeCook v. Olmsted Med. Ctr.,
Inc., 875 N.W.2d 263, 270-71 (Minn.2016), recognizes
that “first-class mail, even if received, is simply not
personal service.”
5 “Service by U.S. mail means mailing a copy of the
document by first-class mail, postage prepaid, addressed to
the person to be served at the person's last known
address.”

16
Second, unsurprisingly, without review of any
evidence or merits, the lower court decision further
conflicts with Due Process. With the decision of the
court of appeals, the supreme court should have
confronted the question of whether district courts are
permitted to allow “sewer service”6, since it has held
that they cannot.
Contrary to whether “petitioner had remedies in
the ordinary course of the law.” App., infra, 2e.f4,
“that conclusion is inevitable. . . [when] such a ruling
involve [s] a contradiction in terms, and treat[ed] as
valid for some purposes that which the courts have
universally held to be a nullity for all purposes.” 236
U.S. at 128. And in a different legal context, the
lower court expressly rejected the reasoning that
underlies Due Process of service. The outcome of this
case would have been different in any other
jurisdiction had fairness been the sole proprietor for
the lower court’s reasoning.
No other “remedies in the ordinary course of the
law''’ exist when no notice or service of an order was
served, received or sent by respondent due to fraud.
Notice was in fact shown received through e-mail
correspondence by the respondent’s counsel of record,
but after the time allowed to respond to an amended
order made ex-parte without Due Process of notice or
service, less proven served, but procured by fraud.
Two Eighth Circuit state supreme courts require
state district court to obtain proof of effective service.
6 "Sewer service is an epithet for the intentional
failure to provide service of process on a named party in a
lawsuit, in order to prevent the party from having a
chance to respond. This practice usually involves filing a
false affidavit claiming that the defendant had been
properly served court papers”

17
Minnesota supreme court of third district. The
Minnesota supreme court’s holding in Shamrock Dev.,
Inc. v. Smith, 754 N.W.2d 377, 382 (Minn.2008),
expressly requires the plaintiff to submit evidence of
effective service when challenged.
North Dakota supreme court of south central
district. The North Dakota supreme court’s holding
in Thorson v. Thorson, 541 N.W.2d 692, 694-95 (N.D.
1996), expressly rejects the exception to Due Process
of service where the mere affidavit of mailing may be
record notice, but it does not equate with actual
notice.
Lastly, whereas Simon forbids the use of fraud to
obtain personal service, “this court refrains from
passing upon propositions not necessary to the
decision of the case although passed upon by the
courts below.” 236 U.S. at 130. “The district court
ruled that petitioner’s claims [under Section 548.14]
were not properly before that court and entered
judgment dismissing the action, without prejudice to
petitioner’s ability to bring his claims in an
appropriate forum.” App., infra, le.f 1. But —
"Authorities would seem to place beyond
question the jurisdiction of the [district] court to
take cognizance of the present suit, which is none
the less an original, independent suit, because it
relates to judgments obtained in the court of
another [forum]. While [discretion] cannot require
the state court itself to set aside or vacate the
judgments in question, it may, as between the
parties before it, if the facts justify such relief,
adjudge that [respondent] shall not enjoy the
inequitable
advantage
obtained
by
h[er]
judgments.” 236 U.S. at 124.

18
Nevertheless, review of state court decisions
absent review on the merits which particularly plead
the use of fraud in the procurement of jurisdiction,
should not in a like manner as lower court, be
overlooked when prima facie evidence, when properly
viewed, ends the controversy and decides the matter
based on law. If lower court properly considered the
proposition of Baylor’s evidence attached to his
complaint, Compl. Exh.LET, (Doc.No.5), 27-CV-204202, that case should have been decided on Due
Process principles by the district court, the court of
appeals or the supreme court. Simon frequently
requires it. This conflict is fundamental when the
constitutional question raised is proven and shown
substantial. If these requirements are met, this case
must be reserved exclusively for this Court’s
mandatory docket.
Likewise, absent proof of effective service of the
amended order based on void orders, must not stand
when “the interest of a parent in the relationship with
[his] child is sufficiently fundamental to come within
the finite class of liberty interests protected by the
Fourteenth Amendment”. 519 U.S. 102 at 119.
Thus, when a petitioner seeks review of a state
court’s refusal to hear constitutional matters, this
Court must determine whether the refusal was
proper, and no more is it precluded from reviewing
the constitutional merits of the case which should
have originally been determined by a court below.
Contrary to this assured result guaranteed by the
United States constitution, left unchecked, the state
court will inevitably find itself issuing holdings that
paradoxically deprive it of jurisdiction or to issue
merits holdings, in manifest conflict with this Court’s
precedence. There is no way around this conflict.
Further review is warranted.

19
B. The lower court sanctioned a departure
from the usual requirement of Due Process
over a non-resident
“Regarding the assertion of personal jurisdiction
over petitioner by the court that dissolved the parties’
marriage, this court previously affirmed the
dissolution court’s determination that petitioner
failed to properly raise the question of personal
jurisdiction when he had the opportunity to do so.”
App., infra, 3e.f4.
This Court recently held in Bauman and BristolMyers Squibb Co. u. Superior Court, 137 S. Ct. 1773
(2017), “the personal jurisdiction of state courts is
subject to review for compatibility with the
Fourteenth Amendment's Due Process Clause; which
limits the power of a state court to render a valid
personal judgment against a nonresident defendant”.
In, Practice Management Support Services, Inc. v.
Cirque du Soleil, Inc.,
F. Supp.3d__ ., 2018 WL
1255021 (N.D. Ill. March 12, 2018), one Circuit found
amongst other that “even if a defendant had waived
this defense, some Courts find that it would be
appropriate to excuse the forfeiture.” Court found it
proper to excuse any waiver on an alternative ground,
contrary to "proper construction of governing law" to
allow questionable waiver to preserve litigation that —
after BMS — was now clearly barred by Due Process
limits on personal jurisdiction.
That basis should be applied in this case, since
the adjudicated facts which show respondent’s use of
fraud in this case are, as follows:
The respondent on May 14, 2018, filed in the
fourth district court of Hennepin county, Minnesota, a
complaint for dissolution of a common-law marriage
by decree — and termination of Baylor’s custodial

20
and visitation rights, as stated relief on the last page
of the Compl.f2. Non-resident Baylor, while making
an physical appearance in another proceeding, was
personally served by opposing counsel of record May
30, 2018, who unknowingly served a complaint (only)
in a closed envelope, without summons. On June 24,
2018, respondent subsequently sent Baylor summons
through an agency employee, via first class U.S mail
pursuant to Minn.R.Gen.Prac. 355.02, Subd.2.7
Evidence of service of summons by mail is clearly
established on the face of the lower court record,
nevertheless, ignored. Baylor received notice on June
27, 2018, 2 days prior to the time required to serve an
answer within 30 days of service of summons and
complaint — as required by statute for service upon a
defendant in an action for dissolution in that state.
Two days prior to the time required for service of
an answer, Baylor retained the temporary legal
counsel of Heimerl & hammers of Minnesota to make
a limited appearance. Following receipt of a copy of
both the complaint (served by opposing counsel) and
summons (served via U.S. mail), H&L filed on the
same day of expiration, the requisite answer, June 29,
2020, contemporaneously with a letter of judicial
approval stating that a Rule 12(b)(2) motion would be
filed. H&L asserts on the first page of the answer,
a
challenge to jurisdiction: “Respondent Christopher
Gary Baylor, pursuant to a Special Appearance for the
purpose of challenging jurisdiction. . . hereby states”
Ans,Pg.l,*[fl.
7 Service by mail shall be made only by the sheriff or
by any other person who is at least 18 years of age who is
not a party to the proceeding. Pursuant to Minnesota
Statutes 2006, section 518A.46. subdivision 2, paragraph
(c), clause (4), an employee of the county agency may serve
documents on the parties.”

21
But due to Baylor’s limited financial resources,
H&L withdrew as counsel of record August 10, 2018,
without first filing a Rule 12(b)(2) motion. Whereon
August 15, 2018, Baylor hastily filed a pro se motion
to dismiss challenging venue and lack of personal
jurisdiction under Minn.Stat.518.09, which says in
part:
“A proceeding for dissolution or legal
separation may be brought by either or both
spouses and shall be commenced by personal
service of the summons and petition venued in the
county where either spouse resides.”
With personal jurisdiction squarely challenged, if
somehow Baylor’s answer was assumed technically
deficient, fault lies with representation, where even if
that were the case, for 50 years the lower court has
said, “a litigant is not to be penalized for the neglect
or mistakes of his lawyer. Courts will relieve parties
from the consequences of the neglect or mistakes of
their attorney.” Duenow u. Lindeman, 223 Minn. 505,
518, 27 N.W.2d 421, 429 (1947); Charson u. Temple
Israel, 419 N.W.2d 488, 491 (Minn. 1988)(explaining
courts' reluctance to punish client for attorney's
oversight).
In spite of these facts, this Court has said
“jurisdiction of the United States courts cannot be
lessened or increased by state statutes regulating
venue or establishing rules of procedure; It also
makes it unnecessary to consider the question of fact
as to whether the judgment was void because of fraud
in its procurement.” Simon, 236 U.S. at 123, 132.
Lastly, upon initial argument, respondent failed
to specifically identify what Baylor did that resulted
in waiver. Respondent had thus waived her waiver
argument. Further review is warranted.

22
C. The decision below conflicts with
governing Supreme Court precedent, and
has significant consequences based on an
important issue of federal law.
The matter here is grounded by one of the oldest
principles known to man, the very fundamental right
of invoking the marital privilege and the existence of
a valid marriage. In a legal context, the test is not
whether the parties believe they are married, but
whether they are married under the law.
First, the lower court has adopted an unduly
narrow view of the facts, and depreciated the
significance of undisputed, disinterested adverse
evidence showing nothing more than a meretricious
relationship. A different question would be here,
whether the parties contract ever came into existence
and hence was void? In association with the language
preceding the valid existence of a purported contract,
courts have long held that the law of the state in
which the marriage was alleged to have taken place,
governs the validity of the marriage in regard to the
capacity of the parties to enter into the contract of
marriage. As a corollary, the general rule of law is
that a marriage valid where it is performed is valid
everywhere. Loughran v. Loughran, 292 U.S. 216,
223, 54 S. Ct. 684, 78 L. Ed. 1219 (1934). The
converse of this proposition is equally well settled: a
marriage void where it is performed is void
everywhere, notwithstanding, procedures that cover
who may perform the marriage ceremony, what
licenses or witnesses are needed. 20 CFR 404.725(a).
This basis is consistent with the lower court
legislature's explicit prohibition of common-law
marriages, see Baker v. Baker, 222 Minn. 169, 171, 23
N.W.2d 582, 583 (1946); see also Abbott v. Abbott, 282

23

N.W.2d 561 566 (Minn. 1979) (recognizing only
marriages
accomplished through
the
formal
ceremonial process described in Chapter 517 are
“legal” marriages in Minnesota).
The Minnesota legislature enacted Section 517.01
which says in part:
“a lawful civil marriage may be contracted —
only when in the presence of two witnesses.
Marriages subsequent to April 26, 1941, not so
contracted shall be null and void.”
Eighth Circuit supports this basis in Radtke v.
Miscellaneous Drivers & Helpers Union Local No.
638 Health. Welfare. Eve & Dental Fund. 867 F.
Supp. 2d 1023, 1032 (D. Minn. 2012).
Both marriages and marriage dissolutions are
controlled by statute in Minnesota. Here, on the face
of the record, Baylor has shown prima facie evidence
that no witnesses appeared or signed the parties
purported marriage contract because of the existing
impediment of marriage fraud, whereas respondent
cannot prove the existence of a valid marriage by the
raising of any evidence:
- showing joint ownership of property;
- lease or joint tenancy of a common residence;
- commingling of financial resources;
- affidavits of third parties attesting to the legitimacy
of the marital relationship;
- a full, partial or any civil ceremony; or any
- other documentation (e.g. photos, videos etc.)
Not once has the respondent raised any such
challenge to the fraudulent marriage, nor does she
produce any new or existing evidence regarding the
validity of the contract. The lower court held in
Robertson v. Roth, 163 Minn. 501, 204 N.W. 329, 39
A.L.R. 1342. "marriage is a civil contract which, if

24
procured by fraud, may, under certain conditions, be
set aside." Notwithstanding the presumption of
marriage when the legitimacy of a child is involved,
the presumption does not arise where legitimacy is
impossible because an impediment to marriage exists
at the time of the child's birth.
Argued below by Baylor in the court of appeals on
June 18, 2020, was a 15 page motion for review of the
district court’s denial of his application to proceed In
Forma Pauperis on wholly substantial matters,
identical to the argument to proceed IFP raised in the
district court. Pursuant to Minn.R.Civ.App.Proc.109.
02(b)8, Baylor cited from the lowest to highest court
precedents: Wallace v. State, 820 N.W.2d 843, 850 n.3
(Minn. 2012); Freeman v. Abdullah, 925 F.2d 266, 267
(8th Cir. 1991); Neitzke v. Williams, 490 U.S. 319, 325
(1989), asking the federal question of whether his
claim of a void marriage under state and Federal law
‘lacked an arguable basis either in law or in fact”?
From a legal standpoint, Baylor’s claim is wholly substantial. However, on that basis, the lower court
decided the matter merely by deferring to its own
opinion concluded neither on legal principles nor the
factual basis that Baylor’s claim is wholly
insubstantial because — the lower court recognized
that Baylor’s claims were arguable. The lower court
did not from a legal standpoint, decide that Baylor’s
claims are wholly insubstantial.
8 If the trial court denies the motion, the party shall,
within 14 days from the date of the trial court
administrator’s filing of the order, either: (b) serve and file
a motion in the Court of Appeals for review of the trial
court’s order denying in forma pauperis status. The record
on the motion shall be limited to the record presented to
the trial court.

25
Second, in M.L.B., 519 U.S at 113, this Court
said in Boddie u. Connecticut, 401 U.S. 371 (1971),
due process “prohibit [s] a State from denying, solely
because of inability to pay, access to its courts to
individuals who seek judicial dissolution of their
marriages.” Id. Despite Baylor filing a motion to
proceed IFP based on ‘wholly substantial’ matters of
marriage grounded in legal principles and concepts of
constitutional significance, the lower court, in its
limited view and sole reliance on an unconstitutional
procedural rule e.g. Minn.R.Civ.App.Proc. 109.02,
said:
“because petitioner still has not paid the filing
fee for this petition, the petition and associated
motions are not properly before this court, and
dismissal is warranted.” App., infra, 2b.f 10.
The constitutional conundrum here besides the
Due Process deprivation of Baylor’s right to proceed
on wholly substantial claims, is his inability to pay,
but not his indigency, because lower court made no
findings on Baylor’s pauperis status, or his actual
ability to pay. Rule 109 expressly states in part:
“The trial court shall grant the motion if the
court finds that the party is indigent and that the
appeal is not frivolous.”
Whether a case like this one should be dismissed
solely on “indigency” or “insubstantial claims” is
ambiguously vague, a matter of substantial practical
importance when this case, generally affects the
public and indigents as a whole, affording an ideal
opportunity to address this issue. Nevertheless, when
the Rule expresses that a district court must find a
party both “indigent” and the appeal “not frivolous”,
lower
court
merely
found
Baylor’s
claim
insubstantial, but based on his clearly established

26
inability to pay court costs in dozens of prior and
present actions, the lower court denied Due Process
“because petitioner still ha[d] not paid the filing fee
for this petition” App., infra, 2b.^10.
“The district court found the petition frivolous
under Minn. R. Civ. App. P. 109.02. Accordingly, the
district court declined to waive the filing fee.” App.,
infra, 2b.^[5. But the district court had not found
Baylor’s petition insubstantial according to Section
563.01 of the Minnesota statute, rather conversely
different from Rule 109 of the Appellate Rules of Civil
Procedure, which in turn provides a more amenable
solution to the statutory “right of appear, however
under Rule 109, a court must find that a party is both
“non-indigent” and that the appeal is “frivolous” to
warrant dismissal, in lieu of either or. The lower
court’s decision is contrary, and not only conflicts its
own rule of law, but with this Court’s precedent on
the denial of an indigent party’s inability to pay,
having significant consequences to the termination of
Baylor’s familial rights, based on an important issue
of federal law.
Further review is warranted.
D. The other questions presented below are
important
Another proposition at issue before this Court,
but passed below, is the consideration of a joint issue
that should be preserved, App., infra, 2e!4. That is the
challenge to lower court’s refusal to vacate a decision
based on void judgments, which lacks a basis for
subject-matter jurisdiction over an action without
standing, directly and collaterally contributing to the
colorful termination of Baylor’s familial rights when
this issue continues to remain eluded by lower courts
without jurisdiction.

27
The gravamen of the matter at issue here arose
on October 2017, when non-resident Baylor was
coerced by respondent to enter into the state of
Minnesota for the sole purpose of service of a
complaint alleging abuse within two weeks of him
visiting Rice county, a lure specially set out to
commence an action in fourth district Hennepin
county, where neither non-resident respondent or
Baylor resided, or where the single act alleged to have
taken place, allegedly occurred outside that county
and state. In fourth county, where fathers are known
to lose the familial rights to their children taken
overseas, this matter is also at issue below,
particularly stated in Baylor’s complaint for fraud in
addition to the respondent’s use of fraud to procure
jurisdiction over a common-law marriage by service of
process through mail, and the subsequent amended
order never received by Baylor through notice or
personal service, an order derived from void orders in
question here and below, App., infra, li-5i, 1j-4j,
absent any findings, albeit, ignored and dismissed as
non-justiciable.
As set out in the lower court’s own holdings, in
Schmidt, Justice KELLY said, that if an “ex parte
order fails to contain any particularized finding of
immediate danger of physical harm and nothing in
the record supports such a finding, it is void.”
Chief Justice MAGNUSAN, citing Schmidt in Lee
v. Lee, 775 N.W.2d 631, 637 (Minn. 2009), said that a
“district court shall make factual findings to support
its choice.” This Court also said in Goldberg v. Kelly,
397 U.S. 254 (1970), due process requires that the
decision-maker demonstrate compliance with this
elementary requirement by stating the reasons for his
determination and indicating the evidence he relied
on.

28
In the case of, In re Marriage of Schmidt, 436
N.W.2d 99, 106-07 (Minn. 1989), the lower court set
aside several ex-parte orders contrary to Due Process,
Section 518B.01, Subd.7 — and Section 518.131,
Subd.2(a) which says in part:
“a void order is a temporary order which
denies parenting time. Court must find that
parenting time is likely to cause physical or
emotional harm to child”
The lower court’s issuance of an ex-parte order
lacking any particularized findings, thus denying
Baylor parenting time (3 years to date), is contrary to
Due Process, when Section 518B.01, Subd.7 first
requires that the applicant allege an “immediate or
present danger” for issuance of an ex-parte order. No
immediate danger was alleged by respondent. In
Minnesota, it is insufficient to establish "domestic
abuse" under the Domestic Abuse Act by merely
demonstrating that domestic abuse occurred within a
family or household. Schmidt ex rel. P.M.S. v. Coons,
818 N.W.2d 523, 526 (Minn. 2012). Here, even if
found in a subsequent proceeding (it was not), cannot
cure void order(s). That court has held for 20 years, a
judgments is void if court acted in a manner
inconsistent with due process." Bode v. Minn. Dep't of
Natural Res., 594 N.W.2d 257, 261 (Minn. App. 1999),
affd, 612 N.W.2d 862 (Minn. 2000).
That court also recognizes, that a parent's right to
make decisions concerning the care, custody, and
control of his child is a protected fundamental right.
SooHoo v. Johnson, 731 N.W.2d 815, 825 (Minn. 2007)
citing Troxel v. Granville, 530 U.S. 57, 65, 120 S. Ct.
2054, 147 L.Ed.2d 49 (2000).
Proving the state court’s decisions are in
derogation to the laws of United States constitution

29
and this Court’s governing case precedent, Baylor’s
First and Fourteenth Amendment claims are not
obviously frivolous, and should not have been
dismissed. None of this Court’s precedents compels
these conclusions. Thus, First and Fourteenth
Amendment concerns arise where a State disregards
laws that have the purpose and effect of subjecting a
party to disfavored treatment by reason of its own
narrow views. In combination with Baylor's exercise
of core First and Fourteenth Amendment rights, the
lower
court's
discouragement
from
further
participation in protecting these rights, condemns
Baylor’s fate, in other words, chills those First
Amendment activities that are most essential to the
proper functioning of non-residents, indigents, self
litigants, males, fathers and minorities to proceed
against government wrongs.
State may not act to maintain the ‘status quo’ by
making it virtually impossible for Baylor to achieve
certain measures of lawful relief, remedy or redress,
asserted herein.
In dismissing Baylors’ First and Fourteenth
Amendment claims all the same, the lower court
relied exclusively on prior opinions, but in the
arguments laid out below, repeated here, claim the
existence of supportive decisions which are rather
inconsistent with the lower court decision-making and
intervening Supreme Court precedent. In dismissing
Baylors’ First and Fourteenth Amendment claims all
the same, the lower court relied exclusively on prior
opinions, but in the arguments laid out above, claim
the existence of adverse decisions rather inconsistent
with state and intervening Supreme Court precedent.
Against this legal backdrop, Baylors’ First and
Fourteenth Amendment claims are non-frivolous and,
indeed, should have been adjudicated under the

30
principles of the United States constitution. Baylor,
accordingly is entitled to a remedy.
CONCLUSION
This petition should be granted when Due Process
impediments asserted herein deny notice, service of
process, access to court, familial rights, free speech and
equal protection, but ignored by the lower court
through exhaustive measures for over 3 years, in more
than several dozen actions, suits and proceedings,
across horizontal and vertical venue/jurisdictions,
resulting in excess of 100 denials without a scintilla of
lawful relief, redress or remedy, causing substantial
prejudice and injury to a protected class non-resident
indigent male father, forced to represent himself in a
foreign jurisdiction, in every matter for a single brief
exception of legal counsel achieving gross error, all
without protections or safeguards afforded to state
residents, but guaranteed to all citizens by the United
States constitution. The colorful termination of Baylor’s
parental rights and imminent removal of his only
American child from the United States of America,
warrants review. Denial here, encourages self remedy
and self relief.
Respectfully Submitted

Jr

af

&By: Christopher Gary Baylor
ml Against A Fatherless America
Advocate for the Prevention of Child
Abduction, Abuse & Alienation
491 Baltimore Pike, 105
Springfield, PA 19064
P: (484) 682-2605
edo_delight@comcast.net

